No.
In The

Supreme Court of tlje ©ntteti States!
Pablo Calderon,
Petitioner,
v.

United States of America,
Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and modified by the
Guidance Concerning Clerk’s Office Operations, dated April 17, 2020, I
certify that one copy of the Petition for a Writ of Certiorari in Calderon
v. United States, No.

was served via United States Postal

Service First Class Mail on all parties required:
Jeffrey B. Wall
Acting Solicitor General
U.S. Department Of Justice
950 Pennsylvania Avenue
N.W. Washington, D.C. 20530
(202) 514-2217
supremectbriefs@usdoi.gov
Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and
correct.
Pablo Calderon
Date: August 6, 2020

